                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A07080044                                                                         Page 1 of 1


                 Based on our proactive review of NSF ~ r o ~ o s awe  l ' discovered a small amount of
         text substantially similar to text (most phrases) found in four sources. We contacted the
         PI and CO-PI~ for this project via letter. In response to our letter, the Subjects indicated
         that they used the source material as a framework and agreed that they did not adequately
         cite the material, although they did state that some of the sources were non-traditional
         (e.g. one source was a research center brochure) and they were not certain of how to cite
         such material.
                 The extent of the copied text did not rise to a level warranting a full investigation.
         Therefore, we wrote the subjects a letter warning them of the implications of plagiarism
         and that they should take steps to remedy their citation practices in the future to bring
         them in compliance with those expected by NSF.
                 Accordingly, this case is closed.




NSF 01G Fo~m2 (1 1102)
